                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                               Inspection of Voice of America’s Indonesian
                                                 Service

                                            Report Number ISP-IB-11-61, August 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                             SENSTITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                             SENSTITIVE BUT UNCLASSIFIED

                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                       Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSTITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                         1
Context                                                                               2
Executive Direction                                                                   3
Strategic Planning                                                                    4
Audience Research                                                                     7
Language Service Programming                                                          8
Use of the Internet and New Media                                                     9
Maintaining Journalistic Standards                                                    10
Resource Management                                                                   11
  Administrative Support                                                              11
  Human Resources                                                                     11
  Equal Employment Opportunity                                                        12
  Communication and Morale                                                            12
  Financial Management, Procurement, and Inventory                                    13
List of Recommendations                                                               15
List of Informal Recommendations                                                      15
Voice of America Indonesian Service Principal Officials                               16
Abbreviations                                                                         17
Appendix A: Indonesian Service Radio Programs                                         18
Appendix B: Indonesian Service Television Programs                                    20
Appendix C: Voice of America Indonesian Service’s Social and New Media Distribution   22




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Indonesia has the world’s largest Muslim population and is favorably disposed towards
       the United States. The Voice of America (VOA) Indonesian Service (the service) is a
       well managed operation that has established a credible presence in Indonesian media
       markets with a strategy that relies on affiliate stations to broadcast its television and radio
       products. In more than 11 years, the service has changed from being a small, shortwave
       operation to a modern, vibrant, multimedia organization that carefully uses audience
       research to target its viewers and listeners.

   •   Television has eclipsed radio in Indonesia, and the use of new media is growing rapidly;
       Indonesia is the second largest user of Facebook in the world. VOA Indonesian television
       broadcasts are carried on some of Indonesia’s largest stations. The service has
       appropriately directed resources in response to these changes in the media environment.

   •   Although the percentage of news in the service’s television products is significantly
       lower than the percentage of feature material, the service believes that this ratio between
       hard/soft news and information is the appropriate mix, given the local media
       environment. On the other hand, the radio market is different and VOA radio programs
       continue to provide a larger percentage of hard news.

   •   The VOA Indonesian Service has no administrative personnel; it receives administrative
       support services from VOA’s East Asian and Pacific Division (EAP) staff and also from
       the International Broadcasting Bureau’s (IBB) staff in specific areas, especially human
       resources and contracting. This support does a good job of handling the service’s needs.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) inspectors did not identify problems that
need to be corrected.

The inspection took place in Washington, DC, between April 11 and May 31, 2011. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Context
       Indonesia has the world’s largest Muslim population. Since 1942, the U.S. Government,
through its VOA Indonesian Service, has been broadcasting into the country, beginning with
shortwave radio. More than 10 years ago, in view of the strategic importance of Indonesia, the
Broadcasting Board of Governors (BBG) converted the service into a multimedia undertaking. 1

        The arrival of democracy in Indonesia had a profound impact on the media in the
country. The news is largely reported freely, and Indonesians enjoy a variety of sources of news
and information. In the competitive media marketplace that developed in the post-Suharto era,
television has emerged as the dominant medium. Radio listening is much reduced in reach and
importance, although it is the second most important medium and remains relevant in rural areas,
in part because the country consists of more than 6,000 inhabited islands spread out over more
than 3,000 miles from east to west. As in many countries, Indonesia is experiencing rapid growth
in Internet usage. Much of this growth is due to the proliferation of Web-enabled mobile
telephones, rather than through personal computers.

        The OIG inspected BBG’s overseas operations in Indonesia in late 2010. 2 The inspection
team visited the VOA Indonesian Service office in Jakarta and a satellite office of the Bangkok
Regional Marketing and Program Placement office. The inspectors found that each office had
strong leadership.




1
    The Broadcasting Board of Governors is an independent Federal agency, supervising all U.S. Government-
    supported, civilian international broadcasting, whose mission is to promote freedom and democracy and to
    enhance understanding through multimedia communication of accurate, objective, and balanced news,
    information, and other programming about America and the world to audiences overseas. BBG broadcasting
    organizations include the Voice of America, Radio Free Europe/Radio Liberty, the Middle East Broadcasting
    Networks (Alhurra TV and Radio Sawa), Radio Free Asia, and the Office of Cuba Broadcasting (Radio and TV
    Marti). Voice of America reached an audience of 125 million in 2010.
2
    Inspection of Broadcasting Board of Governors’ Operations in Indonesia, OIG Report No. ISP-IB-11-25 (March
    2011).
                                                2
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The VOA Indonesian Service chief, with experience living and working in Indonesia,
capably leads the service. Over a period of about 11 years, he has directed the transition away
from a radio operation that was reliant on shortwave to a multimedia platform in which
television plays a dominant role and the Internet presence, while modest, has assumed increasing
importance. He has overseen an active recruiting effort that brought well known journalists and
broadcasting talent from Indonesia to the service. He also has played a leading role in supporting
conferences that bring together the stations that broadcast VOA media products for training and
other activities designed to sustain productive relationships between VOA and its affiliates.

        Day-to-day operations are supervised by full-time employees who are responsible for the
radio, television, and Internet operations. The language service chief’s relationships with the
service’s senior managers are characterized by confidence and open communication. His office
is located close to the staff and his door is open. The production and distribution of the service’s
products run smoothly, and relations are cordial between full-time employees and the contractors
(purchase order vendors or POVs) who supplement their effort. The chief has extremely good
relations with BBG management, who praised him at the language service review and in
meetings during this inspection.

        One senior supervisor has professional skills but a management style that has adversely
affected the workplace environment for a portion of the staff. This negative impact is evidenced
in a number of personal questionnaires and interviews that show a consistent pattern. The OIG
team discussed the situation with the language service chief and made suggestions for possible
remedial actions.

       With the rise in the profile, budget, and staff of television has come a corresponding
decline in the presence of radio at the service. VOA’s decision to eliminate all Indonesian
shortwave broadcasts was a difficult change for radio section staff; many continue to see the
decision as a mistake. (b) (5)


                                                          The language service chief is aware of the
issue and is taking steps to mitigate the effects of the change, to the greatest extent possible. In
some cases, radio employees have been able to transfer to the television division. Also, the
service chief is reviewing the grade structure and promotion possibilities for radio broadcasters.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Strategic Planning
         Strategic planning for the VOA Indonesian Service is closely linked with BBG’s strategic
plan. It begins with the service’s analysis of its strengths and weaknesses and includes a 3-year
performance plan. Strengths include the dedicated, professional, and talented staff. Two of the
identified threats are the declining importance of radio and radio audiences, and the possible
implementation of government regulations against foreign broadcasters.

        In its FY 2011–2013 performance plan, the service ties its objectives and milestones to
BBG’s strategy, with performance indicators. For example, one of the service’s goals is to,
“reach the full spectrum of Indonesian adults with VOA programming.” This goal corresponds to
two BBG strategy implementations: “Enhance program delivery across all relevant platforms,”
and: “Build on BBG reach and impact within the Muslim world.” Other goals of the service,
corresponding to BBG strategies, are to reach Indonesian adults with VOA programming via
new media and to produce programming in Indonesian that increases understanding about
America.

         VOA senior managers expressed their awareness of a potential vulnerability in relying on
affiliate stations. As one person commented, “there is no VOA station.” An extant media law
technically gives the Indonesian Government the authority to intervene and even prevent
material from foreign broadcasters from being seen or heard in the country. There is a further
stricture on the broadcast of breaking news by foreign media organizations. The consensus view
is that the government is unlikely to make use of this law. While the OIG team is not in a
position to assess the validity of that view, the team believes it is a defensible approach.

        The service has appropriately directed resources in response to changes in the media
environment. Between 2005 and 2007, it received supplemental funding to build up its television
unit. The unit began with two POVs and has grown to 15 full-time employees, plus a larger
number of POVs. The new media unit is slower to arrive at its desired strength. It has one full-
time employee and three POVs, but the service knows it needs to devote more resources to take
advantage of the new media opportunities in a country that has the world’s second largest use of
Facebook.

         The VOA Indonesian Service is a well managed operation that has established a credible
presence in Indonesian media markets with a strategy that relies on affiliate stations to broadcast
its television and radio products. Television broadcasts are on 9 of the 11 national stations. The
service also broadcasts regularly on Indonesia’s two 24-hour television news stations. These
placements are made possible by developing relationships with people at Indonesian television
and radio stations and networks, signing agreements with them to broadcast specific media
products that the service produces, and distributing those products by satellite or over the
Internet.

       The service works with IBB’s Office of Marketing and Program Placement (OMPP).
OMPP supports the service by maintaining more than 230 radio and television affiliate
agreements, monitoring compliance, and advertising. During the inspection, the OIG team
learned that an agreement inadvertently had been allowed to lapse, although the affiliate station
continued to broadcast the material the service sent for 2 months afterwards. There have long
been differences of opinion concerning the assigned roles of OMPP and the language service, but
                                                 4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


the situation has improved. Many in the service believe they are better placed to create new
business and sustain effective relationships with the media community in Indonesia than is
OMPP, because while still living in Indonesia they worked at the radio and television stations
with which VOA seeks to establish an affiliation. The service’s Jakarta office, and in particular
its director, also have proven to be key assets in developing new broadcasting opportunities. As
part of an ongoing, strategic review, the BBG board is reviewing how U.S. Government
broadcasters market their products.

        In order to make the affiliate strategy work, the service needs to be responsive to the
needs, preferences, and program formats of the stations with which it works. The service has four
long-form television programs. All other programming is in the form of inserts, which are short
segments that an affiliate can include as part of a longer program. There has been huge growth in
the television audience, due to this insert strategy. Affiliates are reluctant to provide large blocks
of time. They are more willing to accept short inserts from VOA, ranging in television broadcast
time from 3 to 5 minutes. An insert can be replayed perhaps two or three times. Some are daily,
but most are weekly. Five-minute inserts for radio have even more replay possibilities. The
service notes that U.S. advertisers recognize the effectiveness of short, repetitive messages. For
example, they sometimes pay millions of dollars to place 30-second spots at sporting and cultural
events. The service director stressed that all insert broadcast time is free of charge to VOA, and
all broadcasts clearly display the VOA logo or identify the piece as coming from VOA, at both
the beginning and end of the segments.

        Some employees interviewed were concerned about the affiliate stations’ expressed
preference for features and other light material, rather than news. VOA management
acknowledged this trend, and stated that it had made a conscious management decision on its
distribution strategy. Television has eclipsed radio in Indonesia, and Internet usage is growing
rapidly. The percentage of news in the service’s television products is significantly lower than
the percentage of feature material, reflecting interests and pressures in the Indonesian television
market.

        The service has developed a pop culture unit that produces interesting, light material for
television, to which affiliates have responded positively. The BBG has no formula for
determining which percentage of a service’s products must be news. The service acknowledged
that disinterest in world news poses a threat. Even with pop culture, however, the service
integrates hard news whenever it can, for a minute or two. Reporting news objectively and
accurately is one of the service’s three principal responsibilities under the VOA charter. The
others include presenting a balanced, comprehensive view of America and carrying out a
responsible discussion of U.S. policy. It is likely that the competitive nature of the media market
in Indonesia and the availability of diverse sources of news will continue to put pressure on the
service to offer fewer news products and more feature material.

        There are also daily program feeds that go out to all affiliates, which include an important
3-minute television package that they may carry, or not. This tactic appears to be working. In
addition special news events, such as the death of Osama bin Laden, go out to all affiliate
stations. The timing of such news events is unpredictable, and audience numbers from these
programs do not appear in audience research.



                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


        Notwithstanding the shortcomings and potential vulnerabilities of relying on affiliate
stations, the OIG team believes that the affiliate strategy represents a sensible approach to
sustaining a VOA presence in Indonesia’s currently free and open media marketplace.




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Audience Research
        The service makes regular use of available information and mechanisms to monitor
the effectiveness of its programs. The BBG contracts InterMedia, a media market research
firm, to conduct surveys to estimate the audience reach of VOA’s programs in Indonesia.
This information is expressed as both a percentage and the number of adults (age 15 or older)
who recall seeing or hearing VOA’s content within a given period of time, usually within the
past 7 days. The most recent InterMedia study of VOA in Indonesia, conducted in April
2010, indicated an increased reach for television products; the reach of the service’s radio
programs was down slightly since 2009. According to the April 2010 research, television
programming reached 15.7 percent of Indonesia’s adults weekly (24 million people), while
radio programs reached 1.3 percent (2 million people). These audience research findings are
consonant with the service’s increase in resources, its emphasis on television, and the
abovementioned change of strategy. Nonetheless, managers indicate that it is important to
use a variety of media, since each mode may reach a different audience, and the mixture
allows for flexibility and responsiveness to market changes.

        The service also participates in VOA’s annual program review, an internal process that
assesses the quality of selected, individual programs. BBG personnel told the OIG team that they
are folding the language service program reviews into BBG’s year-long reassessment of its
global strategy, which was in process during the inspection.

        While not statistically valid, feedback on VOA products reaching the service through the
Internet, especially the social media sites, has anecdotal interest. Many of the comments posted
by readers, listeners, and viewers respond to VOA’s coverage of specific issues. For instance,
during the inspection, the death of Osama bin Laden elicited a high number of online posts. This
unsolicited feedback offers an informal measure, if not of the service’s effectiveness, then of the
interest that VOA programs generate.

        The OIG team believes that managers in the VOA Indonesian Service are making
appropriate use of available research information and anecdotal material, and incorporating it
into their planning and decision making. For example, based on research, the service has targeted
women’s programming. It has used focus group findings to define the needs of audiences in the
lower socioeconomic status—the most important area in which to expand radio programming.
Focus groups also have provided important feedback for creating and improving the service’s
Web site. In response to such research, the service also now offers special programming for
Muslims, including a program on Islam in America. Finally, research has guided the shift toward
the Internet and mobile phones as media outlets.




                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Language Service Programming
        The affiliate network of national and local stations includes 9 of the 11 national TV
stations, more than 20 regional TV stations, and more than 230 FM/MW radio stations. The
service has diversified its radio programming beyond general purpose news and information, to
target particular audiences: youth, young executives, women, businessmen, and people in the
lower economic strata. It is attracting a new set of listeners with tailored content for such widely
popular outlets as Ben’s Radio in Jakarta, part of the Ethnic Network of 14 stations; the Woman
Radio Network; and Female Radio.

        The Indonesian Service has responded to TV and radio affiliate demands for short-form
programming (for instance, the inserts mentioned above, which an affiliate airs during its own
regular programming and often repeat several times in a week). It maintains that a short segment
on a very popular national TV station reaches many more viewers than longer programs on less
well known stations. The service produces 5 minutes of international headline news for radio 32
times per day; more than 100 stations carry several editions of these headlines each day. (See
appendices A and B for descriptions of VOA Indonesian Radio and TV programs.)




                                           8
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Use of the Internet and New Media
        The service has established an effective presence on the Internet, consisting of a Web
page that is updated around the clock; accounts on Twitter, YouTube, and Facebook; and a staff-
written blog. At the time of the inspection, the service anticipated hiring additional, dedicated
Internet staff and increasing the number of staff written blogs. BBG managers told the OIG team
that the Indonesian Service is a “poster child” for moving forward in working with new media. It
knows its market and works well with the BBG Office of New Media. (See Appendix C for more
details on the service’s use of new media.)

        The service has successfully exploited Indonesians’ interest in Facebook. Less than
2 years old at the time of the inspection, its main Facebook page already had attracted more
than 320,000 fans. The use of Facebook supports the BBG mission of engagement.

        The service also is exploring ways to take advantage of the rapid rise in the use of
smartphones in Indonesia. While relatively few Indonesians own a computer, mobile telephones
are ubiquitous, and Indonesians use them in a variety of ways, including surfing the Web and
sending text messages. The OIG team views the service’s focus on smartphones as a sound
strategic move.




                                          9
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Maintaining Journalistic Standards
        Both managers and staff members at all levels in the VOA Indonesian Service appear to
be cognizant of VOA’s charter, its mission, and the imperative to present balanced and accurate
reporting. Some of those working in the service are contractors, and they are similarly aware of
the need to maintain journalistic standards. The VOA code has sections on sourcing, accuracy
and balance, fairness, content and comprehensiveness, and procedures. Periodic training is
available, and both the code and VOA charter are on BBG’s intranet.

        In March 2011, the Indonesian service chief circulated an email reiterating and refreshing
the quality review policy. Every story the service broadcasts should be reviewed by someone
else, preferably a senior programmer/editor, before being aired or used on the Web site. “It goes
for everyone, no exceptions.” The chief also requested a follow-up from each person, providing
the names of the person or people who routinely provide oversight, so that the chief could verify
that staff members are following procedures. The OIG team commended the chief’s proactive
interest in maintaining journalistic standards.




                                         10
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED



Resource Management
       The service has a FY 2011 budget of $5.9 million. There are currently 44 budgeted full-
time positions, plus four positions in Jakarta (one local employee and three contractors). In
addition, the service uses approximately 36 contractors (POVs and stringers) in its operations.
The contractor numbers vary throughout the year.

Administrative Support

     The service has no administrative personnel. Administrative services are provided for it
by VOA’s EAP staff and by IBB staff in specific areas.

Human Resources 3

        The BBG Office of Human Resources provides good support to the service. Position
descriptions and job classifications are basically in good order. Inspectors found some concern
about the grade levels for staff in the radio operation, versus the television operation. The
television operation has positions classified at GS-12, whereas the radio operation still has a
significant number of GS-11 positions. Management is reviewing the classification level of these
radio positions.

        Recruitment and hiring are ably handled by the BBG Office of Human Resources, but the
pace has slowed during the last year due to budget constraints and the uncertainties of continuing
resolutions. Voice of America upper management and the BBG Office of Human Resources have
worked closely to establish a system whereby vacated GS-11 positions can be filled by a
language service as a GS-9/11 ladder progression, with potential to move to a GS-12, as justified.
        Most employees felt they had received a good orientation to the work environment, and
especially their benefits, when they first came on board. They noted, however, that with regard to
their actual work, there was basically an on-the-job-training approach. Several employees
indicated that, although they understood the budgetary constraints, they would appreciate the
opportunity for more training. This feeling was especially true for the POVs, who must obtain a
written exception and justification in order to receive training. Management addressed the
training issue by arranging a journalism refresher training for half the employees (on the radio
side) in April 2011; the remaining employees will be trained in the near future. This training has
been particularly helpful for a number of the longer-serving employees, who started out as
translators and may have had little or no journalism experience. The service chief encourages
supervisors to pursue training in leadership and communication skills. He also has supported the
BBG-wide, mandatory training sponsored by the Office of Civil Rights (OCR) on preventing
sexual harassment and discrimination.

       During the last few years, the service had money in the budget for awards and
accordingly conducted awards ceremonies at the end of the year, supplemented by on-the-spot

3
    For a detailed discussion of the support provided to VOA language services by the BBG Office of Human
    Resources, especially with regard to position descriptions, job classifications, recruitment, and hiring, see
    procedures outlined in: Inspection of Voice of America’s Chinese Branch, Report Number ISP-IB-10-53, July
    2010.
                                                11
                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


awards for special efforts and accomplishments. This year, budget constraints and the
uncertainties of the continuing resolutions have thrown the awards program into question. Once
any funding is made available, the service chief plans to allocate it appropriately for awards. The
service also utilizes nonmonetary recognition awards (plaques), as well as time-off awards to
recognize exceptional efforts. The chief also has nominated several of his staff for the IBB-wide
medal awards.

        A few employees referred to perceptions of nepotism, arising from the fact that there are
four married couples working in the service. When the OIG team raised this concern with the
service chief, he indicated that, in every case, proper reporting structures were in place so that
one member of the couple could not supervise the other and no conflicts of interest could arise.
One of the marriages occurred after the two individuals had become employees. There is a strict
procedure for documenting any potential case of nepotism to ensure that all BBG regulations are
followed.

Equal Employment Opportunity

        Through the intranet and broadcast emails, most employees in the service are aware of
the Office of Civil Rights (OCR) and how it can help them if they have problems or disputes at
work. OCR informed the OIG team that during the last 5 years, they had received no complaints
from the Indonesian Service.

       As noted above, as of January 2010, OCR initiated sexual harassment awareness and
prevention training online, which is mandatory for all employees on an annual basis. In
addition, online training in the No Fear Act, aimed at providing certain protections to
employees who have filed Equal Employment Opportunity and whistle blower complaints, is
also mandatory every 2 years for all employees.

        According to the BBG Office of Employee Relations, there have been no major
disciplinary problems in the VOA Indonesian Service in recent years.

Communication and Morale

         Seventy-eight percent of the service employees responding to OIG questionnaires rated
their morale as high (4 or 5, with 5 being the highest ranking), despite also raising a number of
issues. (b) (5)

                                              The radio unit also is under pressure to produce
programming day in and day out, on a virtually continuous basis, whereas the television side is
more project- and presentation-oriented, with fewer hours to fill.

        One of the complaints was a lack of communication and transparency in the service.
Some employees were not clear on the service’s mission and how BBG wants them to
accomplish it. Others noted that the radio unit and the television unit are too stove piped and cut
off from each other’s actions and activities, so that neither unit knows what the other is doing.

       Informal Recommendation 1: The Voice of America Indonesian Service should hold
       periodic town meetings for all employees and contractors (taped for redistribution), to
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


       communicate Voice of America and BBG policy, update employees on developments
       inside and outside their service, and facilitate questions and answers.

Financial Management, Procurement, and Inventory

        The VOA Indonesian Service chief, assisted by the EAP administrative assistants,
generates a budget proposal annually and receives his service’s funding from the BBG. This
year, with the multiple continuing resolutions, it was much more difficult to finalize spending
plans. In many cases, this situation doubled or tripled the paperwork required for procurement,
POV processing, etc. The administrative staff of EAP support the service with time and
attendance processing for employees, travel advance and reimbursement processing, preparation
of procurement documents for the POVs, inventory of high-value property items, provision of
expendable supplies, and purchase card/requisition processing. Appropriate procedures appear to
be in place, required approvals signatures are obtained, and proper documentation is on file. One
possible problem area cited by two employees was the allegation of abuse of the time and
attendance system.

       Informal Recommendation 2: The Voice of America Indonesian Service should review
       time and attendance procedures and follow up by spot checking via managerial
       observation.

         A majority of the POVs mentioned one problem: late payment for their contracts. Some
cited 2-month delays. Purchase order vendors must submit their invoices, by certain due dates
monthly, to the appropriate administrative assistant in EAP. The EAP must process them, check
signatures, and convey the invoices to the finance section, which then processes them via the
MOMENTUM accounting system. If everything works perfectly, the invoices are paid, usually
in about 2 weeks, but if an invoice has errors or is incomplete, it is rejected and must be
reinitiated. However, the terms of the agreement with the POVs clearly state that payment will
be within 30 days. Special attention by the EAP administrative assistants has greatly reduced
these problems, but this case exemplifies the way clearer communication, perhaps via the
recommended town meetings, could clarify the situation and reduce anxiety.

        When the OIG inspectors discussed the POV contract payment issue with the service
chief, he noted that a major problem had occurred from November 2010 to January 2011, when
the finance office experienced a large turnover of processing personnel. The problem has since
been resolved. In addition, due to this year’s budget uncertainties and continuing resolutions, the
finance office sometimes has had to process two or three times as many invoices because of the
irregular funding authorization periods. Occasional glitches still occur, but the situation has
improved significantly.

        The OIG team also found that a new POV must submit a price proposal for the
assignments/stories or hours of work to be performed, which delineates what the compensation
rate will be. When POVs are activated, they must sign a detailed agreement which spells out
clearly that they are not employees of the U.S. Government and are not entitled to benefits. The
IBB contracting office prepares and distributes detailed training materials, to make sure
supervisors and managers follow the required steps in arranging for POVs.



                                          13
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


       At the time of the inspection, the annual inventory of accountable property had just been
completed, and all items were accounted for properly. Accountable items generally fall into five
categories: recorders, video cameras, laptop computers, wireless microphones, and mini digital
VCRs. The VOA uses two different inventory programs, depending on the type of property.




                                         14
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Recommendations
None.



List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Voice of America Indonesian Service should hold periodic
town meetings for all employees and contractors (taped for redistribution), to communicate
Voice of America and Broadcasting Board of Governors policy, update employees on
developments inside and outside their service, and facilitate questions and answers.

Informal Recommendation 2: The Voice of America Indonesian Service should review time
and attendance procedures and follow up by spot checking via managerial observation.




                                        15
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Voice of America Indonesian Service Principal Officials

Position                                   Name             Arrival Date

VOA Asian and Pacific Division          William Baum        Sept. 2010
Indonesian Service Chief                Norman Goodman      Oct. 2000
Managing Editor                         Irna Sinulingga     June 2008
Executive TV Producer                   Helmi Johannes      May 2005
Supervisory International Broadcaster   Djoko Santoso       May 2008
Supervisory International Broadcaster   M. Ali Lubis        June 2008
Supervisory International Broadcaster   Jimmy Manan         Aug. 2005
Supervisory TV Production Specialist    Nadia Madjid        Aug. 2009
Supervisory TV Team Leader              Patsy Widakuswara   Oct. 2005




                                        16
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations

BBG             Broadcasting Board of Governors
Department      U.S. Department of State
EAP             East Asian and Pacific Division
IBB             International Broadcasting Bureau
OCR             Office of Civil Rights
OIG             Office of Inspector General
OMPP            Office of Marketing and Program Placement
POV             Purchase order vendor
Service         Voice of America Indonesian Service
VOA             Voice of America




                            17
                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Appendix A: Indonesian Service Radio Programs
  •   Morning Show (Siaran Fajar): A 150-minute show that includes news, editorials,
      correspondent reports, features on America, personal development, and infotainment. The
      Morning Show format was completely revised in February 2006. The show is carried in
      whole or in part by 107 affiliates.

  •   Evening Show (Siaran Petang): A 60-minute show that includes news, editorials,
      correspondent reports, features on America, personal development, and infotainment. The
      Evening Show format was completely revised in February 2006. The show is carried in
      whole or in part by 67 affiliates. The show was reduced to 60 minutes, 7 days per week in
      April 2007, to free resources for VOA Executive Lounge and other radio initiatives.

  •   Headline News: Launched on April 3, 2005, 33 five-minute daily newscasts; 7 days per
      week, produced in response to requests from affiliate stations. There are 135 affiliate
      stations airing Headline News for various frequencies each day.

  •   VOA DC: A popular culture and news program with sophisticated production quality
      aired by 107 stations in 87 cities. The 1-hour show airs Thursday, Friday and Saturday
      evenings.

  •   The VOA-Sonora Interactive: A weekly 60-minute interactive on current events with
      Jakarta affiliate Radio Sonora and five Sonora affiliates in major cities.

  •   VOA Minute: a 3- to 5-minute, prerecorded insert on “Youth News” for Prambors Radio
      and seven Prambors affiliates. VOA prepares five inserts per week, and each is aired
      twice in prime time and once in non-prime time each day.

  •   VOA Executive Lounge/VOA Executive Weekend: A 30-minute daily talk show produced
      for the Trijaya Radio Network. The show targets young professionals with the slogan:
      “Success in career, success in life.” The show airs in primetime on Trijaya FM in Jakarta
      and 18 other cities across Indonesia.

  •   Pojokan DC Bersama Patsy: A weekly, 5-minute, live phone conversation for radio
      between Patsy Widakuswara in Washington and popular Delta FM host Farhan.
      Conversation covers topical issues in Indonesia and how U.S. handles similar issues, e.g.
      home schooling, freedom of speech, and religion. Delta FM network (6 stations), Monday
      mornings between 7:30-7:45 a.m.

  •   VOA Inserts: The inserts are short features on a variety of topics (health, science and
      technology, education, English, etc.) that have been excerpted and repackaged from our
      long-form programs, The Breakfast Show, Evening Show and VOA DC. The service
      produces eight 2- to 3-minute inserts each week. Stations are encouraged to insert the
      VOA package whenever and as often as they like throughout their programming day.

  •   DC Jakarta Chat: A weekly, 30-minute, interaction between VOA and Global radio hosts
      on pop culture developments, Mondays from 8:00 to 8:30 a.m., Jakarta time.
                                        18
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



   •   Economic Reports: A 5-minute report; the first 2.5 minutes are based on the latest global
       markets, commodities prices, and exchange rates. The second half consists of news on the
       U.S. economy or other business-related stories. Produced for the PAS FM network of five
       stations, plus other stations. Transmitted via email, it airs Monday through Friday.

   •   VOA Green Living for Green Radio: Three minutes, Monday through Friday, repeated
       one or more times, addressing climate change, environment, and green lifestyles.

   •   Gondangdia for Dangdut TPI Radio: Five minutes, daily, an insert on life in America
       presented in the style of stations that appeal to C and D class listeners who enjoy dangdut
       music and culture. Dangdut is a popular mix of Arabic, Indian, and Malay/Indonesian
       music.

   •   VOA Smart Living for Smart FM: Saturday and Sunday, 5 minutes, three times per day on
       how to be successful in career, workplace, health, and relationships.

   •   VOA America Today for Smart FM: Saturday and Sunday, 5 minutes, three times per day
       on science, technology, and education.

   •   VOA Jazz for Smart FM: Tuesday, 25 minutes, Jazz.

   •   VOA Country for Smart FM: Mondays, 10 minutes of country music.

   •   VOA Aje: Short inserts for Jakarta’s most popular radio station, Ben’s Radio, a station
       that appeals to C and D class listeners. VOA contributes three 5-minute inserts per week
       that are played multiple times, on culture and profiles of people in the United States, plus
       coverage of dangdut bands in the US.

   •   VOA Flash: The latest news from Hollywood (movies and behind the scenes), music
       industry, artist interviews, concert info, and coverage, along with inspirational stories of
       Indonesians holding successful careers in the United States or unique career paths, such
       as a fashion designer to the celebrities and/or an animator for a box-office hits movie. All
       of this is segmented for Jak-FM listeners of general affluent audience from the capital
       city of Jakarta.

   •   VOA Kisah Rantau: Short stories of Indonesians and their unique experiences living in
       the United States, along with their stories of success (if any) as they try their luck living
       abroad; segmented for CPP Radio Group for listeners of dangdut and Indo-Pop music.

   •   VOA Pop Notes for Radio: Culture and lifestyle interaction by phone with a university
       station in Jogyakarta, Indonesia; offshoot of Pop Notes TV show.

   •   VOA Scoop: Daily inspirational stories targeted to women, covering parenting, health,
       social issues, profiles of successful women, and celebrities.

Source: VOA Indonesian Service

                                          19
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Appendix B: Indonesian Service Television Programs
Regular Programs
•   Dunia Kita (Our World): The Indonesian Service’s longest running TV production, launched
    in 2000, is a weekly half-hour TV magazine featuring human interest stories that airs on
    Metro TV. It alternates between in-studio and outdoor presentation. 26 stations in 22 cities.

•   VOA Snapshots: A 30-minute weekly program featuring American trends, lifestyle, sports
    and news, launched in February 2011 for Metro TV, Saturdays at 9:30 a.m., replayed
    Mondays at 11:05 a.m.

•   Warung VOA (VOA Cafe): Launched in January 2006, a 1/2-hour weekly talk show broadcast
    on JTV, a Surabaya-based station that covers 30 million people in East Java. It includes Opo
    Inggrise? (What’s the English for …?) a segment based on radio’s How Do You Say That?

•   VOA Pop Notes: A 30-minute popular culture show launched in February 2007, the show airs
    Saturdays at 7:00 p.m. on JAK-TV, a local TV station in Jakarta, reaching a young audience
    in the Indonesian capital.

•   VOA Splash for Insert Pagi on Trans TV: Consists of 2- to 3-minute inserts, 6 times per
    week, covering lifestyle and celebrities based on acquired content.

•   VOA for Dahsyat on RCTI: Weekly, 3-minute packages featuring inspiring and unique stories
    from all over the United States; Dahsyat is one of the most popular programs on all of
    Indonesian TV.

•   Sana Sini for ANTV: Five-minute, weekly segment featuring comparisons between events or
    public facilities in the United States and Indonesia.

•   Laporan VOA (VOA Report): Up-to-the-minute U.S. news reports for Metro TV’s morning
    newscast, Metro Pagi, weekdays between 4:30 and 6:00 a.m. on Metro TV.

•   Seputar Indonesia Inserts (Around Indonesia Inserts): Three-minute features on family-
    oriented issues and trends for RCTI’s morning newscast, Seputar Indonesia. Stories range
    from interesting architecture and festivals to socio-cultural trends. The Indonesian Service
    contributes four packages a month that are aired Saturdays or Sundays between 4:30 to 6:00
    a.m. on RCTI.

•   US News Segment on Indosiar’s Diplomatic Affairs: Launched in December 2006 as Indosiar
    Round Up News; Diplomatic Affairs is aired weekly on Sunday night and features top
    international stories of the past week. The 7- to 8-minute segment provides the latest U.S.
    news, usually comprising the latest hard news wrap-up and a lifestyle/human interest story.

•   Apa Kabar Amerika: Launched in June 2008, a weekly, 6-minute international news
    summary inserted into tvOne’s Monday morning news program.


                                         20
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


•   VOA Kabar Pasar (Market News): Three minutes of economic news for tvOne on Mondays
    between 09:30 and 10:00 a.m.

•   Kampung Amerika: Five-minute segment featuring interesting places and events in the
    United States for JTV’s Pojok Kampung.

•   VOA All Affiliates Satellite Feed: Top story of the day package offered to all TV affiliates,
    five times per week, plus ad hoc reports.

•   Apa Kabar Indonesia Weekend on tvOne: Light feature stories on various topics from the
    United States ranging from health and parenting to cultural performances and tourism; five-
    minute package, airs Sunday mornings.

•   Inspirasi VOA for Apa Kabar Indonesia Pagi on tvOne: Three-minute packages, twice per
    week, aired in the Apa Kabar morning show; Indonesian-related stories from the United
    States.

•   Inserts for Lintas MNC TV: Three-minute packages on the life, activities, and events
    involving Indonesians in the United States.

•   Feature for Liputan 6 Pagi SCTV: Weekly, 3-minute feature packages on various events in
    the United States from extreme sports to adventure tourism.

•   Metro Pagi Weekend: Three-minute packages on sports and/or feature events, depicting
    unique people; launched in March 2008, the program airs weekly on Saturdays or Sundays,
    between 4:30 and 6:00 a.m.

•   VOA for Redaksi Siang/Redaksi Malam on Trans 7: Two 3-minute packages on various
    topics from the United States, ranging from health and parenting to cultural performances
    and tourism.

•   VOA for Galeri Siang on B Channel: Launched May 1, 2011, Galeri VOA airs twice per
    week at noon. Three-minute packages, covering various aspects of American and
    international culture, as well as entertainment news. B Channel is a Jakarta local channel
    networked with 26 local stations across Indonesia.

•   VOA Inserts for JAKTV: Two 3-minute stories featuring interesting places and events in the
    United States, profiles of successful Indonesians in the United States.

•   Kilas VOA: One-minute newsflash summarizing today’s top stories from around the world
    for VOAIndonesia.com and local TV stations.

Source: VOA Indonesian Service




                                          21
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Appendix C: Voice of America Indonesian Service’s Social
and New Media Distribution
Owner: VOA Indonesian Service
 Type of Media       Site Name                    Site Address                  Type
 Social Media      VOA Indonesia   www.voaindonesia.com                        General
 Social Media      Warung VOA      http://www.facebook.com/executivelounge#    Facebook
                                   !/profile.php?id=100000029351929
                   Facebook
 Social Media      VOA Pop News    http://twitter.com/voapopnews                 Blog
                    Twitter
 Social Media      Pojokan DC      http://blogs.voanews.com/indonesian/pojok     Blog
                    Blog           an-dc
 Social Media      VOA Executive                                               Facebook
                    Lounge         http://www.facebook.com/executivelounge
 Social Media      VOA Pop News    http://www.facebook.com/#!.VOA-Pop-Ne       Facebook
 Social Media      Dunia Kita on   http://www.facebook.com/#!/DuniaKita        Facebook
                    Facebook
 Social Media      VOA Facebook    www.facebook.com/voaindonesia               Facebook
 Social Media      VOA Twitter     www.twitter.com/voaindonesia                 Tweets
 Social Media      VOA YouTube     www.youtube.com/voaindonesia                YouTube
 Mobile            VOA for         www.voahp.voa.mobi                           World
 Phones             Mobile                                                      News
VOA Indonesian Service




                                       22
                           SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.



           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:


             202-647-3320
             800-409-9926

         oighotline@state.gov

             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219


   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
